Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    EFFECT OF THE PART D
 COVERAGE GAP ON MEDICARE
   BENEFICIARIES WITHOUT
FINANCIAL ASSISTANCE IN 2006




                    Daniel R. Levinson
                     Inspector General

                       March 2009
                     OEI-05-07-00610
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E         S U M M A R Y


            OBJECTIVES
            1. To determine the number of Medicare beneficiaries who did not
               receive financial assistance with prescription drugs during the
               Part D coverage gap in 2006.

            2. To determine changes in prescription drug purchases and payments
               by these beneficiaries.


            BACKGROUND
            Medicare Part D provides an optional drug benefit to Medicare
            beneficiaries. The Centers for Medicare & Medicaid Services (CMS)
            contracts with private insurance companies, known as plan sponsors, to
            provide prescription drug coverage for beneficiaries who choose to enroll
            in the program.

            During the coverage year, the financial responsibilities of beneficiaries,
            plan sponsors, and CMS vary during each of four distinct coverage
            phases for the standard benefit: annual deductible, initial coverage,
            coverage gap, and catastrophic coverage. The coverage phase
            determines a beneficiary’s share of the drug cost at the point of sale.
            After reaching the initial coverage limit, beneficiaries enter the
            coverage gap phase and are responsible for 100 percent of drug costs.
            Beneficiaries may receive financial assistance for drug costs during the
            coverage gap phase from their plans; from low-income subsidies; or from
            other approved third-party payers, such as State Pharmacy Assistance
            Programs.
            We used Medicare Part D prescription drug data to determine the
            number of Medicare beneficiaries who did not receive financial
            assistance with prescription drug costs during the coverage gap in 2006.
            We also assessed beneficiary changes in drug purchasing behavior and
            payments during the coverage gap. Finally, we conducted a national
            beneficiary survey to further enhance our analysis of beneficiary
            changes in drug purchasing and use behaviors during the coverage gap.


            FINDINGS
            Seven percent of Part D beneficiaries entered the coverage gap and
            did not receive financial assistance with prescription drug costs. Of
            the more than 22 million Part D beneficiaries who filled at least one
            prescription in 2006, 1.5 million beneficiaries had gross covered drug
E X E C U T I V E                    S U          M M A R Y


                   costs exceeding the initial coverage limit of $2,250 and did not receive any
                   financial assistance in paying for drugs during the coverage gap.
                   During the coverage gap, drug purchasing behavior changed for
                   almost all beneficiaries who did not receive financial assistance.
                   Of the beneficiaries who did not receive financial assistance during the
                   2006 coverage gap, 98 percent made some changes in their drug
                   purchasing behavior. Sixty-nine percent of beneficiaries decreased the
                   average number of drugs purchased during the coverage gap. This
                   decrease could have represented a strategy that beneficiaries used to
                   reduce their financial burden during the coverage gap, or it could have
                   represented appropriate reductions due to changes in their health
                   status.

                   The greater the average number of drugs per month that beneficiaries
                   purchased before entering the coverage gap, the more they reduced the
                   average number of drugs per month that they purchased during the
                   coverage gap. Beneficiaries who purchased an average of at least nine
                   drugs per month had the largest decrease at 18 percent.

                   When a sample of beneficiaries similar to those included in the above
                   analysis was surveyed, they identified specific types of changes in drug
                   purchasing behavior and use. Thirty-eight percent of beneficiaries
                   reported seeking at least one less-costly alternative to purchasing drugs.
                   On the other hand, 20 percent of the beneficiaries surveyed may have been
                   eligible for but not enrolled in a low-income subsidy that could have
                   assisted them with purchasing drugs during the coverage gap.
                   Additionally, one-third of the beneficiaries surveyed appeared to have
                   compromised their drug regimens with changes in use.


                   RECOMMENDATIONS
                   CMS should support outreach and education activities targeted at
                   beneficiaries who make more prescription drug purchases before
                   entering the coverage gap. CMS could encourage plan sponsors to
                   augment their outreach and education efforts by using drug utilization
                   data to target beneficiaries who purchased nine or more drugs per month
                   during the initial coverage phase. CMS could also supplement plan
                   sponsors’ outreach and education efforts by working directly with these
                   beneficiaries to explore cost-saving strategies for prescription drugs and
                   the tools available for choosing different benefit packages (in which they
                   could enroll during the next open season).



 OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   ii
E X E C U T I V E                    S U          M M A R Y


                   CMS should target low-income subsidy outreach to
                   beneficiaries who entered the coverage gap without financial
                   assistance. Targeting the population of beneficiaries who entered the
                   coverage gap without financial assistance in previous years might be
                   one way to identify eligible beneficiaries for enrollment in the
                   low-income subsidy program. In addition, beneficiaries who enter the
                   coverage gap without financial assistance for prescription drug costs
                   might benefit from more education about applying for the low-income
                   subsidy that can assist them throughout the rest of the benefit year,
                   including during the coverage gap.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS generally agreed with our findings and stated that it appreciated
                   the additional information provided through the beneficiary survey.
                   CMS noted that our findings were similar to the results of CMS’s
                   analysis presented at the Medicare Drug Benefit Symposium, held in
                   October 2008. However, CMS indicated a concern about the lack of a
                   control group with which to compare our results. As a result, CMS
                   pointed out that this evaluation does not provide a true causal analysis.
                   This is accurate, as the report does not present a true causal analysis.
                   Rather, it presents data about drug purchases with a number of
                   plausible explanations of those data, including the possibility that the
                   decrease in drug purchases was the result of the coverage gap.
                   CMS did not concur with our first recommendation. CMS stated that it
                   believed its current outreach to all beneficiaries is sufficient. However,
                   we found that beneficiaries who made more prescription drug purchases
                   before entering the coverage gap had the largest drop in the number of
                   drugs purchased during the coverage gap. Because these beneficiaries
                   take more prescription drugs, they are likely in poorer health and are
                   the most vulnerable to negative health consequences from
                   nonadherence to drug regimens. Therefore, additional outreach and
                   education about efficient and effective drug purchasing options targeted
                   at this group of beneficiaries could have far-reaching health benefits.

                   CMS concurred with our second recommendation. However, the actions
                   CMS stated it would take do not address our recommendation to use
                   drug utilization data to identify potential beneficiaries for the subsidy.




 OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   iii
E X E C U T I V E               S U      M M A R Y
Δ   T A B L E           O F            C O N T E N T S




          EXECUTIVE SUMMARY .....................................i


          INTRODUCTION........................................... 1


          F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                     Seven percent of Part D beneficiaries entered the coverage gap
                     without financial assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                     During the coverage gap, drug purchasing behavior changed . . . 12


          R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                     Agency Comments and Office of Inspector General Response . . . 20


          A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                     A: Detailed methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

                     B: Beneficiary survey responses . . . . . . . . . . . . . . . . . . . . . . . . . . 27

                     C: Nonresponse analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

                     D: Estimates and confidence intervals . . . . . . . . . . . . . . . . . . . . . 34

                     E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36


          A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40
Δ   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To determine the number of Medicare beneficiaries who did not
                     receive financial assistance with prescription drugs during the
                     Part D coverage gap in 2006.

                  2. To determine changes in prescription drug purchases and payments
                     by these beneficiaries.


                  BACKGROUND
                  Research suggests that the Medicare Part D coverage gap may affect
                  beneficiaries’ prescription drug use behaviors. A 2006 national survey
                  of noninstitutionalized Medicare beneficiaries found that rates of
                  nonadherence to a drug regimen because of costs were greater for
                  Part D beneficiaries than for seniors with the Veterans Administration
                  or an employer-sponsored prescription drug plan. 1 The study suggested
                  that beneficiaries who entered the Medicare Part D coverage gap may
                  have changed their prescription drug use behaviors because they were
                  responsible for 100 percent of their drug costs during the coverage gap. 2
                  Additional research suggests that Medicare beneficiaries whose benefits
                  were capped use fewer prescription drugs overall and fewer drugs for
                  treatment of chronic diseases. 3
                  The Medicare Part D Prescription Drug Benefit
                  Medicare Part D provides an optional outpatient prescription drug
                  benefit to Medicare beneficiaries. 4 The Centers for Medicare &
                  Medicaid Services (CMS) contracts with private entities, known as plan
                  sponsors, to provide prescription drug coverage for beneficiaries who
                  choose to enroll in the program. These plan sponsors may offer a
                  stand-alone prescription drug plan or they may offer prescription drug
                  coverage as part of a managed care plan, known as a Medicare
                  Advantage prescription drug plan (hereinafter referred to collectively as
                  plans).

                    1 Patricia Neuman, et al., “Medicare Prescription Drug Benefit Progress Report:
                  Findings From a 2006 National Survey of Seniors.” Health Affairs, vol. 26, no. 5,
                  August 21, 2007.
                    2 Ibid.
                    3 John Hsu, et al., “Unintended Consequences of Caps on Medicare Drug Benefits.” The
                  New England Journal of Medicine, vol. 354, no. 22, June 1, 2006.
                    4 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA),
                  P.L. No. 108-173 § 101, Social Security Act, § 1860D, 42 U.S.C. § 1395w-101(a).



OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   1
I N T R O D        U C T           I O N


                    Part D Coverage
                    During the coverage year, the financial responsibilities of beneficiaries,
                    plan sponsors, and CMS vary during each of four distinct coverage
                    phases for the standard benefit: annual deductible, initial coverage,
                    coverage gap, and catastrophic coverage. 5 The coverage phase
                    determines a beneficiary’s cost. 6 In general, beneficiaries are
                    responsible for a monthly premium; a deductible; and cost-sharing at
                    the point of sale, which can be either percentage-based coinsurance or a
                    fixed copayment.

                    To determine the coverage phase, plan sponsors must track prescription
                    drug costs and payments every time a beneficiary fills a prescription
                    under Part D. Cost data include the cost of the drug, dispensing fee,
                    and sales tax. Payment data include all payments made by plan
                    sponsors; beneficiaries; and other approved third-party payers, such as
                    State Pharmacy Assistance Programs (SPAP). 7
                    Part D Coverage Types
                    The MMA permits plan sponsors to offer plans with either standard
                    prescription drug coverage or alternative prescription drug coverage. 8
                    Alternative prescription drug coverage may be either actuarially
                    equivalent to standard prescription drug coverage or enhanced. 9 Plan
                    benefits, including formularies, premiums, deductibles, and beneficiary
                    cost-sharing requirements, vary according to coverage type. 10
                    Standard coverage. In 2006, standard plans had an initial deductible of
                    $250. 11 In all standard plans, after paying the deductible, beneficiaries
                    enter the initial coverage phase. During initial coverage, beneficiaries
                    pay a 25-percent coinsurance toward Part D drug costs. Initial coverage
                    continues until gross covered drug costs reach the initial coverage limit




                      5 CMS, “2007 Prescription Drug Event Data Training Participant Guide,” Module 4 –
                    Calculating and Reporting the Basic Benefit, p. 4-3, 2007.
                      6 Ibid.
                      7 Other approved third-party payers include health savings accounts, flexible spending
                    accounts, medical savings accounts, and certain charities.
                      8 MMA, P.L. No. 108-173 § 101, Social Security Act, § 1860D, 42 U.S.C. § 1395w-102(a).
                      9 42 CFR § 423.104(e) and (f).
                      10 MMA, P.L. No. 108-173 § 101, Social Security Act, § 1860D, 42 U.S.C. § 1395w-102(b)
                    and (c).
                      11 42 CFR § 423.104(d)(1).




 OEI-05-07-00610    EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   2
   I N T R O D              U C T            I O N


                              established by law. 12 Gross covered drug costs are the total cost of
                              drugs (including dispensing fee and sales tax) regardless of payer.

                              After reaching the initial coverage limit, beneficiaries in most plans
                              enter the coverage gap phase and are responsible for 100 percent of
                              drug costs. The coverage gap continues until beneficiaries’ true
                              out-of-pocket (TrOOP) spending reaches the annual TrOOP threshold. 13
                              Generally, TrOOP spending includes all beneficiary payments
                              (excluding monthly premiums) and any payments made by approved
                              third-party payers. 14
                              After reaching the TrOOP threshold, beneficiaries enter the
                              catastrophic coverage phase. During catastrophic coverage,
                              beneficiaries pay approximately 5 percent in coinsurance toward Part D
                              drug costs, 15 plans pay approximately 15 percent, and CMS pays plans
                              the remaining 80 percent.

                              The maximum amount that beneficiaries pay out of pocket for the
                              deductible and during the initial coverage and coverage gap phases are
                              adjusted yearly. 16 The 2006 standard coverage thresholds are shown in
                              Table 1.



Table 1: 2006 Standard Coverage Cost-Sharing Thresholds by Benefit Phase

                                                                                                                    Cost-Sharing
                                                                     Beneficiary                                               Plan                                                CMS
                                                                                                             Maximum              Percentage                    Maximum              Percentage
                                                         Maximum                  Percentage                     Total               of Drug                        Total               of Drug
Benefit Phase              Gross Drug Costs             Total Cost*              of Drug Cost                    Cost                   Cost                        Cost                   Cost
Deductible                                   $250                 $250                        100%                        $0                         0%                      $0             0%
Initial coverage             > $250 to $2,250                     $500                         25%                 $1,500                         75%                        $0             0%
Coverage gap               > $2,250 to $5,100                  $2,850     100%          $0                                                           0%                      $0             0%
                                                                   approximately
Catastrophic coverage       generally > $5,100              **              5%           **                                                       15%                         **           80%
* The beneficiary’s maximum total cost does not include monthly premiums.
** The amount paid depends on the amount of drugs purchased during catastrophic coverage.
Source: “CMS 2007 Prescription Drug Event Data Training Participant Guide,” 2007.




                                12 MMA, P.L. No. 108-173 § 101, Social Security Act, § 1860D,
                              42 U.S.C. § 1395w-102(b)(3)(A).
                                13 42 CFR § 423.104(d)(5)(iii).
                                14 CMS, “Prescription Drug Benefit Manual,” ch. 5 § 30.
                                15 42 CFR § 423.104(d)(5)(B).
                                16 42 CFR § 423.104(d)(1)–(5).




       OEI-05-07-00610        EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E     3
I N T R O D        U C T           I O N


                    Actuarially equivalent coverage. Actuarially equivalent plans offer
                    coverage that is at least equal to the value of standard coverage. 17
                    Actuarially equivalent plans may contain a coverage gap phase.
                    However, they may increase the initial coverage limit, which could
                    make the entry point into the coverage gap different from the entry
                    point under standard coverage. Actuarially equivalent plans can also
                    offer lower or no deductibles and copayments instead of coinsurance at
                    the point of sale.

                    Enhanced coverage. Enhanced plans must provide supplemental
                    benefits in addition to providing standard prescription drug coverage. 18
                    As part of their supplemental benefits package, enhanced plans must
                    offer coverage of drugs that are specifically excluded as Part D drugs or
                    at least one feature that increases the value above the actuarial value of
                    standard coverage. 19 Features that can be used to increase the
                    actuarial value of benefits include lower deductibles, an increase in the
                    initial coverage limit, or reductions in cost sharing at the point of sale.
                    Although enhanced plans may provide lower beneficiary cost-sharing
                    obligations or full coverage during the coverage gap, most enhanced
                    plans did not in 2006.
                    Part D Enrollment
                    In 2006, 22.5 million Medicare beneficiaries were enrolled in Part D
                    plans. 20 Enrollment varied among coverage types: 17 percent of Part D
                    beneficiaries were enrolled in standard coverage plans, 52 percent in
                    actuarially equivalent coverage plans, and 30 percent in enhanced
                    coverage plans. 21 22




                      17 MMA, P.L. No. 108-173 § 101, Social Security Act, § 1860D,
                    42 U.S.C. § 1395w-102(c)(1)(A).
                      18 42 CFR § 423.104(f).
                      19 42 CFR § 423.104(f)(1)(ii).
                      20 The Henry J. Kaiser Foundation, “Medicare Data Update: Prescription Drug Coverage
                    Among Medicare Beneficiaries,” June 2006. Available online at
                    http://www.kff.org/medicare/upload/7453.pdf. Accessed on August 1, 2008.
                       21 Juliette Cubanski, Patricia Neuman, “Status Report on Medicare Part D Enrollment
                    in 2006: Analysis of Plan-Specific Market Share and Coverage,” Health Affairs, 26, p. w6,
                    2007.
                      22 Percentages do not add to 100 percent because of rounding.




 OEI-05-07-00610    EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   4
I N T R O D        U C T           I O N


                    Part D Drugs
                    Covered Part D drugs are the subset of Part D drugs that are included
                    on a Part D plan’s formulary. 23 Part D excludes drugs for which
                    payment is available under Medicare Parts A or B and drugs that may
                    be excluded from coverage or otherwise restricted under Medicaid,
                    except for smoking cessation agents.

                    Subject to a plan’s formulary, Part D covers both generic and
                    brand-name drugs. A generic drug is chemically identical to its
                    brand-name counterpart, with the same therapeutic effect and
                    risk-benefit profile. Generally, generic drugs are cheaper than
                    brand-name drugs. According to the National Association of Chain
                    Drug Stores, in 2006 the average brand-name prescription drug cost
                    $107.48, while the average generic prescription drug cost $31.39—a
                    71-percent difference. 24 Although the use of generic drugs may help
                    reduce costs, this reduction is possible only when a physician prescribes
                    a generic drug or a pharmacist substitutes a generic drug if one is
                    available for the prescribed brand-name drug.
                    Part D Low-Income Subsidy
                    To be eligible for a low-income subsidy, a beneficiary must meet an
                    income and asset test. A beneficiary’s annual income must be less than
                    150 percent of the Federal poverty level (FPL) ($14,700 for an individual
                    and $19,800 for a married couple living together in 2006). The value of
                    assets, including bank accounts, stocks, bonds, and real estate other
                    than the beneficiary’s primary residence, must be below $10,000 for
                    individuals and $20,000 for married couples.

                    Beneficiaries with such limited income and assets are eligible to receive
                    assistance to pay the out-of-pocket costs associated with their
                    prescription drug coverage. The fewer financial resources an eligible
                    beneficiary has, the lower his or her out-of pocket costs will be in all
                    coverage phases, including the coverage gap. Some beneficiaries receive
                    drug coverage with no monthly premium, no annual deductible, and no
                    copayments at the point of sale. Other beneficiaries pay copayments
                    ranging from $1 to $5 but do not pay monthly premiums or annual


                      23 Covered Part D drugs also include those that are on a Part D plan’s formulary as a

                    result of a coverage determination or appeal.
                      24 National Association of Chain Drug Stores, “Industry Facts at a Glance:
                    Pharmaceutical Pricing.” Available online at
                    http://www.nacds.org/wmspage.cfm?parm1=507. Accessed on June 6, 2008.



 OEI-05-07-00610    EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   5
I N T R O D        U C T           I O N


                    deductibles. Still other beneficiaries have a sliding-scale monthly
                    premium, a $50 deductible, and a coinsurance of 15 percent at the point
                    of sale. Beneficiaries who receive the low-income subsidy are not
                    subject to the coverage gap.
                    Previous Office of Inspector General Work
                    The Office of Inspector General (OIG) has conducted many studies
                    related to Part D, including generic drug utilization in Part D, 25
                    identifying beneficiaries for the low-income subsidy, 26 CMS’s tracking of
                    beneficiaries’ TrOOP costs, 27 and dual eligibles’ transition from
                    Medicaid to Medicare. 28


                    METHODOLOGY
                    Scope
                    This study explores the effect of the coverage gap on beneficiaries’ drug
                    purchases during 2006 by focusing on beneficiaries without financial
                    assistance (i.e., from plans; low-income subsidies; or other approved
                    third-party payers, such as SPAP). During the coverage gap,
                    beneficiaries with financial assistance did not face the same financial
                    burden related to purchasing prescription drugs as beneficiaries without
                    financial assistance. Thus, our analysis excludes beneficiaries who had
                    financial assistance during the coverage gap. In addition, this study
                    included only Part D-covered drugs in our analysis, as only those
                    purchases count toward the initial coverage limit and beneficiaries’
                    TrOOP costs.
                    Data Sources
                    We used 2006 Prescription Drug Event (PDE) data to conduct this
                    study. CMS requires plans providing prescription drug coverage to
                    submit PDE data for payment purposes. Each drug event included in
                    these data represents the dispensing of a drug or medical supply for the
                    injection of insulin.



                      25 OIG, “Generic Drug Utilization in the Medicare Part D Program,” OEI-05-07-00130,
                    November 2007.
                      26 OIG, “Identifying Beneficiaries Eligible for the Medicare Part D Low-Income Subsidy,”
                    OEI-03-06-00120, November 2006.
                      27 OIG, “Tracking Beneficiaries’ True Out-of-Pocket Costs for the Part D Prescription
                    Drug Benefit,” OEI-03-06-00360, December 2007.
                      28 OIG, “Dual Eligibles’ Transition: Part D Formularies’ Inclusion of Commonly Used
                    Drugs,” OEI-05-06-00090, January 2006.



 OEI-05-07-00610    EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   6
I N T R O D        U C T           I O N


                    We used two drug data compendia to supplement the PDE data. For
                    each claim, these compendia indicated whether the prescribed drug was
                    a brand-name or generic drug and whether the drug was typically
                    prescribed to treat a chronic or an acute condition.

                    In addition, we conducted a national survey of beneficiaries. Using
                    the PDE data, we selected a simple random sample of
                    300 beneficiaries who had gross covered drug costs greater than the
                    initial coverage limit of $2,250. We excluded all beneficiaries with
                    low-income subsidies or those who were enrolled in enhanced plans
                    from our sample to remove beneficiaries who might have received
                    assistance during the coverage gap. The survey was distributed by
                    mail in February 2008 and data collection lasted through March 2008.

                    Upon receiving the surveys, we removed beneficiaries who appeared
                    to have received financial assistance during the coverage gap. We
                    used 2006 PDE data to determine which beneficiaries did not pay
                    100 percent of their drug costs during the coverage gap. After
                    removing any beneficiary who did not pay 100 percent of drug costs,
                    we had a sample of 176 beneficiaries. Of these 176 beneficiaries,
                    142 responded to our survey, for an 81-percent response rate.

                    Because the survey was conducted in 2008, beneficiaries may have
                    also been in the coverage gap in 2007. Therefore, we asked
                    beneficiaries about their general experiences while in the coverage
                    gap and did not ask them to tie their experiences to a specific year.
                    The survey asked beneficiaries to identify, from predetermined lists of
                    options, changes they made in how they used and purchased
                    prescription drugs after entering the coverage gap. It also requested
                    information such as marital status and income range.

                    For a complete list of the data sources and other aspects of the
                    methodology, see Appendix A. For a copy of the beneficiary survey
                    and for the total responses, see Appendix B.
                    Data Analysis
                    Determining the number of beneficiaries in the coverage gap. To establish
                    how many beneficiaries entered the coverage gap and did not have
                    financial assistance, we summed the appropriate cost and payment
                    fields in the PDE data for Part D-covered drugs to determine which
                    beneficiaries had gross covered drug costs exceeding the initial coverage
                    limit. After identifying this population of beneficiaries, we selected all
                    of their 2006 PDE claims for Part D-covered drugs (hereinafter referred
                    to as drugs). Using the date when each beneficiary entered the coverage

 OEI-05-07-00610    EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   7
I N T R O D        U C T           I O N


                    gap and the date each became eligible for catastrophic coverage (if
                    applicable), each claim was assigned to the proper coverage phase for
                    that beneficiary: initial coverage (including deductible phase), coverage
                    gap, and catastrophic coverage. 29 We then excluded beneficiaries who
                    did not pay 100 percent of their drug costs during the coverage gap to
                    remove beneficiaries who had financial assistance in the coverage gap.

                    Using these claims data, we calculated a number of descriptive
                    measures. We determined the average number of days it took
                    beneficiaries to enter the coverage gap, how long they remained in the
                    coverage gap, and when they left the coverage gap for catastrophic
                    coverage.
                    Analyzing changes in beneficiary drug purchases. To measure
                    prescription drug purchasing in each coverage phase, we calculated
                    three measures: (1) average number of prescription drugs purchased
                    per month, (2) percentage of prescription drugs purchased to treat
                    chronic and acute conditions, and (3) generic drug utilization rate.

                    To calculate the average number of prescription drugs purchased per
                    month by coverage phase, we calculated the unique number of drugs by
                    beneficiary by month. Then, for each coverage phase, we divided the
                    total number of unique drugs by beneficiary by the total number of
                    months.

                    For purposes of this analysis, in all prescription data, we normalized the
                    data by the number of days that the prescription covered. We
                    considered PDE data with a supply of less than or equal to 44 days as
                    one prescription; greater than 44 days but less than or equal to 74 days
                    as two prescriptions; and greater than 74 days as three prescriptions.

                    Analyzing changes in beneficiary drug payments. To analyze payment in
                    each coverage phase, we computed the average and median beneficiary
                    payment per phase and the average beneficiary payment per month. To
                    determine the average and median beneficiary payment per phase, we
                    used the PDE data field “patient pay amount” for each beneficiary.
                    “Patient pay amount” is the amount that the beneficiary paid for each
                    drug. We calculated the average beneficiary payment per month by



                      29 For purposes of this analysis, the deductible and initial coverage phases were
                    combined.




 OEI-05-07-00610    EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   8
I N T R O D        U C T           I O N


                    dividing the total beneficiary payment by the total number of months in
                    that phase.

                    Analyzing beneficiary survey responses. To analyze beneficiary survey
                    responses, we calculated basic frequencies on the key questions related
                    to beneficiaries’ changes in drug purchases and use during the coverage
                    gap. We conducted a nonresponse analysis to see how our survey
                    estimates might be affected by potential nonresponse bias and found no
                    evidence of bias. Appendix C provides details of the nonresponse
                    analysis.

                    We projected all survey statistics to beneficiaries who entered the
                    coverage gap, were not enrolled in enhanced plans, did not receive
                    low-income subsidies, and paid 100 percent of drug costs during the
                    coverage gap based on their 2006 PDE claims. See Appendix D for a
                    list of 95-percent confidence intervals for all statistical projections.
                    Data Limitations
                    Our analysis of PDE data covered only prescription drugs purchased
                    through Part D. Because PDE data do not capture prescription drug
                    purchases outside Part D, we could not capture the full extent of
                    beneficiaries’ prescription drug purchases. In addition, SPAP
                    assistance with prescription drug costs would only have been visible in
                    the PDE data if the SPAP coordinated with Part D. However, our
                    survey analysis asked beneficiaries about the use of free medication
                    samples and purchases made outside their Part D plans in an attempt
                    to gather this information.

                    Because we chose to base our analysis of the PDE data on the number of
                    months in which beneficiaries filled a prescription, not enrollment
                    months, our results are not comparable to standard industry
                    per-member-per-month measures, which are based on enrollment
                    months. For example, our analysis of the average number of drugs per
                    month may be higher than industry averages. However, this analytic
                    choice does not change the relative decrease in the average number of
                    drugs purchased per month after entering the coverage gap.

                    The population to which we project our survey sample is different from
                    the population used to conduct the PDE analysis. Both populations
                    excluded beneficiaries who received financial assistance during the
                    coverage gap. The survey population, however, excluded all
                    beneficiaries enrolled in enhanced plans, some of whom may not have
                    received assistance during the coverage gap. In other words, the survey
                    population, because of the means used to target beneficiaries, may not

 OEI-05-07-00610    EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   9
I N T R O D        U C T           I O N


                    represent all beneficiaries who did not receive assistance during the
                    coverage gap.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-05-07-00610    EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   10
I NI N
F    T R
       D O
         I ND GU SC T               I O N
Δ      F I N D I N G S



 Seven percent of Part D beneficiaries entered             Of the 22 million Part D
the coverage gap and did not receive financial             beneficiaries who filled at least one
  assistance with their prescription drug costs            prescription in 2006, 7 percent had
                                                           gross covered drug costs exceeding
                     the initial coverage limit of $2,250 and did not receive any financial
                     assistance during the coverage gap. This represents approximately
                     1.5 million beneficiaries. In contrast, 26 percent, or approximately
                     5.6 million beneficiaries, had gross covered drug costs exceeding the
                     initial coverage limit but had some assistance during the coverage gap.
                     This assistance could have come from their plans; low-income subsidies;
                     or other approved third-party payers, such as SPAP. In total,
                     33 percent of beneficiaries had gross covered drug costs exceeding the
                     initial coverage limit in 2006.
                                                    gap Beneficiaries who did not have
                     Time spent before the coverage gap.
                     financial assistance during the coverage gap took an average of
                     7 months to enter the coverage gap. In fact, 36 percent entered the
                     coverage gap in the third quarter of the year, and 45 percent entered
                     the coverage gap in the fourth quarter. Thirteen percent of beneficiaries
                     who did not have assistance during the coverage gap entered the
                     coverage gap in December.

                     Time spent in the coverage gap. Most beneficiaries who did not have
                     financial assistance (83 percent) spent less than 6 months in the
                     coverage gap. Approximately 17 percent spent 6 to 8 months in the
                     coverage gap, and less than 1 percent spent 9 to 12 months.

                     Money spent during the coverage gap. While in the coverage gap,
                     beneficiaries who did not have financial assistance spent an average
                     total of $979, with a median total of $675. On average, these
                     beneficiaries spent $108 per month before entering the coverage gap
                     and $290 per month during the coverage gap.

                     Beneficiaries who left the coverage gap. Twelve percent (178,717) of
                     beneficiaries without financial assistance during the coverage gap left it
                     and entered catastrophic coverage. Beneficiaries who entered
                     catastrophic coverage spent an average of 4.5 months in the coverage
                     gap and 2.7 months in catastrophic coverage. Overall, 59 percent of
                     beneficiaries who entered catastrophic coverage did so in the last
                     quarter of 2006.




   OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   11
F    I N D I N G       S




           During the coverage gap, drug purchasing               Of the beneficiaries who did
    behavior changed for almost all beneficiaries who             not receive financial
                  did not receive financial assistance            assistance during the 2006
                                                                  coverage gap, 98 percent
                      made some changes in their drug purchasing behavior. During the
                      coverage gap, 69 percent of beneficiaries decreased the average number
                      of drugs purchased, while 29 percent increased the average number of
                      drugs purchased.
                      For those beneficiaries who decreased the average number of drugs they
                      purchased during the coverage gap, the number dropped from an
                      average of 4.5 drugs per month to 3.8 drugs per month. This decrease
                      could represent a strategy that beneficiaries used to reduce their
                      financial burden during the coverage gap, when they were responsible
                      for 100 percent of drug costs. This explanation is consistent with
                      research suggesting that beneficiaries decrease prescription drug use
                      when they encounter a gap in coverage. The decrease could also reflect
                      nonadherence to prescribed drug regimens. On the other hand, the
                      reduction could be the result of medically appropriate changes in
                      beneficiaries’ drug regimens due to changes in health status.
                      For those beneficiaries who increased the average number of drugs they
                      purchased, the number rose from an average of 4.3 drugs per month to
                      5.6 drugs per month during the coverage gap. This increase is most
                      likely explained by changes in the beneficiaries’ drug regimens due to
                      changes in health status.

                      Overall, changes in drug purchasing behavior did not alter the type of
                      drugs purchased as measured by chronic versus acute drugs.
                      Beneficiaries used chronic and acute drugs in the same proportions
                      before and during the coverage gap, at a rate of approximately
                      80-percent chronic and 20-percent acute drugs. The high percentage of
                      drugs that beneficiaries purchased to treat chronic conditions indicates
                      that beneficiaries’ prescription drug needs remain mostly stable over
                      time, regardless of purchasing patterns. Because the percentage of
                      acute drugs did not decrease during the coverage gap, the decrease in
                      the average number of drugs is likely not explained by the cessation of
                      acute medical conditions.

                      In addition, beneficiaries increased their utilization rate of generic
                      drugs by 8 percent during the coverage gap, from 49 to 53 percent.
                      Although the generic utilization rate increased during the coverage gap,

    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   12
F   I N D I N G              S


                            it remained lower than the 2006 Part D national generic utilization rate
                            of 56 percent. 30
                            Beneficiaries with more drug purchases before entering the coverage gap
                            made greater changes in their drug purchasing behavior during the
                            coverage gap
                            The greater the average number of drugs per month that beneficiaries
                            purchased before entering the coverage gap, the more they reduced the
                            average number of drugs per month that they purchased during the
                            coverage gap. Beneficiaries who purchased an average of 1 to 4.9 drugs
                            per month had a 9-percent decrease in the average number of drugs
                            purchased per month, while beneficiaries who purchased an average of
                            5 to 8.9 drugs had a 10-percent decrease. Beneficiaries who purchased
                            an average of at least nine drugs per month had the largest decrease, at
                            18 percent. See Table 2 for the changes in average monthly drug
                            purchasing for all beneficiaries.




             Table 2: Average Number of Drugs Purchased per Beneficiary per Month
                                                                            Average Monthly
          Beneficiaries by Average                                          Number of Drugs                     Average Monthly
          Drugs Purchased per                                              Purchased Before                     Number of Drugs
          Month Before Entering                 Number of                       Entering the                   Purchased During
          the Coverage Gap                    Beneficiaries                   Coverage Gap                     the Coverage Gap                      Percent Change
          Beneficiaries purchasing
          1–4.9 drugs                                959,075                                       3.5                                  3.2                              -9%
          Beneficiaries purchasing
          5–8.9 drugs                                527,738                                       6.2                                  5.6                            -10%
          Beneficiaries purchasing
          9 or more drugs                              43,975                                    10.1                                   8.3                            -18%
          Source: OIG analysis of 2006 PDE data, 2008.



                            The greater the average number of drugs per month that beneficiaries
                            purchased before entering the coverage gap, the greater their average
                            monthly payments both before and during the coverage gap. However,
                            beneficiaries who purchased an average of nine or more drugs per
                            month before entering the coverage gap had a smaller percentage
                            increase in their average monthly payments when comparing costs
                            before and after entering the coverage gap than beneficiaries who
                            purchased, on average, fewer drugs per month. See Table 3 for the
                            changes in average monthly payments for all beneficiaries.

                              30 OIG, “Generic Drug Utilization in the Medicare Part D Program,” OEI-05-07-00130,
                            November 2007.



    OEI-05-07-00610         EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   13
F   I N D I N G              S




             Table 3: Average Payment per Beneficiary per Month
          Beneficiaries by Average                                            Average Monthly                    Average Monthly
          Drugs Purchased per                                                  Payment Before                     Payment During
          Month Before Entering                  Number of                        Entering the                      the Coverage
          the Coverage Gap                     Beneficiaries                    Coverage Gap                                Gap                      Percent Change
          Beneficiaries purchasing
          1–4.9 drugs                                 959,075                                     $100                               $258                             158%
          Beneficiaries purchasing
          5–8.9 drugs                                 527,738                                     $120                               $319                             166%
          Beneficiaries purchasing
          9 or more drugs                              43,975                                     $181                               $432                             139%
          Source: OIG analysis of 2006 PDE data, 2008.



                            Beneficiaries who purchased an average of nine or more drugs per
                            month saw a 139-percent increase in average monthly payments
                            compared to more than 150 percent for other beneficiaries. This smaller
                            percentage increase is likely explained by the fact that this group of
                            beneficiaries most dramatically reduced the average number of drugs
                            purchased during the coverage gap, thereby mitigating the full financial
                            burden of the coverage gap.

                            The smaller percentage increase is not explained by a change in generic
                            drug utilization. In fact, the more drugs beneficiaries purchased on
                            average before the coverage gap, the less likely that they were to
                            increase their utilization of generic drugs during the coverage gap.
                            Beneficiaries purchasing an average of 1 to 4.9 drugs per month
                            increased their generic utilization rate from 44 percent before entering
                            the coverage gap to 49 percent during the coverage gap. However,
                            beneficiaries who purchased an average of five or more drugs per month
                            before entering the coverage gap did not change their generic utilization
                            rates. See Table 4 for rates of generic utilization before and during the
                            coverage gap.




    OEI-05-07-00610         EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   14
F   I N D I N G               S




       Table 4: Rates of Generic Utilization
    Beneficiaries by Average                                       Generic Utilization                             Generic
    Drugs Purchased per                                                  Rate Before                      Utilization Rate
    Month Before Entering the                 Number of                 Entering the                            During the
    Coverage Gap                            Beneficiaries             Coverage Gap                        Coverage Gap                     Percent Change
    Beneficiaries purchasing
    1–4.9 drugs                                  959,075                               44%                                  49%                                11%
    Beneficiaries purchasing
    5–8.9 drugs                                  527,738                               55%                                  55%                                  0%
    Beneficiaries purchasing 9
    or more drugs                                  43,975                              59%                                  59%                                  0%
    Source: OIG analysis of 2006 PDE data, 2008.



                             For the beneficiaries who purchased an average of five or more drugs
                             per month before the coverage gap, increasing generic utilization rates
                             may not have been an option. Their generic utilization rates before they
                             entered the coverage gap were already higher than those of other
                             beneficiaries. Further, their generic utilization rate was at or above the
                             Part D national generic utilization rate. 31
                             Although decreasing the average number of drugs that beneficiaries
                             purchased during the coverage gap may have helped them reduce their
                             financial burden, it may have kept them in the coverage gap longer. For
                             example, beneficiaries who purchased an average of nine or more drugs
                             per month before the coverage gap spent an average of 4.5 months in
                             the coverage gap, compared to 4 months or less for other beneficiaries.
                             See Table 5 for the average amount of time before beneficiaries entered
                             the coverage gap and the average amount of time beneficiaries spent in
                             the coverage gap.




             Table 5: Average Time in the Coverage Gap in Months
         Beneficiaries by Average Drugs                                              Average Amount of                          Average Amount
         Purchased per Month Before                           Number of               Time To Enter the                            of Time in the
         Entering the Coverage Gap                          Beneficiaries                Coverage Gap                             Coverage Gap
         Beneficiaries purchasing
         1–4.9 drugs                                               959,075                                       7.9                                   3.0
         Beneficiaries purchasing
         5–8.9 drugs                                               527,738                                       6.8                                   4.0
         Beneficiaries purchasing 9 or
         more drugs                                                 43,975                                       4.5                                   4.5
         Source: OIG analysis of 2006 PDE data, 2008.



                               31 OIG, “Generic Drug Utilization in the Medicare Part D Program,” OEI-05-07-00130,
                             November 2007.



    OEI-05-07-00610          EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   15
F   I N D I N G               S




                            Beneficiaries who purchased an average of nine or more drugs per
                            month were possibly in the coverage gap longer, on average, than other
                            beneficiaries. Because these beneficiaries purchased a greater average
                            number of drugs per month, they entered the coverage gap earlier than
                            other beneficiaries. It took this group of beneficiaries approximately
                            4.5 months to enter the coverage gap, compared to over 6.5 months for
                            other beneficiaries. Thus, they had a longer time to spend in the
                            coverage gap. Beneficiaries who entered the coverage gap later in the
                            coverage year may have had their time in the coverage gap cut short by
                            the end of the benefit year.
                            Surveyed beneficiaries identified specific types of changes in drug
                            purchasing behavior and use
                            Changes in drug purchasing. When we surveyed a sample of
                            beneficiaries similar to those included in the analysis above, 32
                            38 percent of the beneficiaries reported seeking at least one less-costly
                            alternative to purchasing drugs, including free medication samples,
                            comparison shopping, and switching to mail-order pharmacies. Table 6
                            lists changes that beneficiaries reported making in drug purchasing
                            behavior during the coverage gap.



            Table 6: Beneficiaries’ Reported Changes in Drug Purchasing During
            the Coverage Gap
            Changes in Purchasing Prescription Drugs                                                  Percentage of Beneficiaries*
            Used free medication samples                                                                                                       25%
            Shopped around and compared prices                                                                                                 23%
            Switched to a mail-order pharmacy                                                                                                  11%
            Purchased drugs outside their plan                                                                                                   8%
            *Choices are not mutually exclusive
            Source: OIG analysis of beneficiary survey responses, 2008.



                            In addition to seeking less-costly alternatives to purchasing prescription
                            drugs, beneficiaries sought help from informal sources to help pay for
                            drug purchases. Fifteen percent of beneficiaries who reported entering
                            the coverage gap reported receiving help to pay for their prescription


                              32 For a discussion of the sampling methodology used to select this sample of
                            beneficiaries, please see the methodology, p. 7.



    OEI-05-07-00610         EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   16
F   I N D I N G               S


                             drug purchases during the coverage gap; 2 percent reported more than
                             one type of help. Table 7 lists sources that beneficiaries reported
                             receiving help from during the coverage gap.


            Table 7: Beneficiaries’ Reported Sources of Financial Help During the
            Coverage Gap
            Sources of Financial
            Assistance                                                                                   Percentage of Beneficiaries
            Family member or friend                                                                                                               8%
            SPAP*                                                                                                                                 4%
            Private pharmaceutical
            company                                                                                                                               4%
            Charitable organization                                                                  1%
            *We removed all beneficiaries who received financial assistance during the 2006 coverage
            gap based on 2006 PDE data. This would include assistance from SPAPs. Beneficiaries may
            be referring to help from SPAPs in the 2007 coverage gap or may be confusing premium
            assistance with help paying for drugs at the point of sale.
            Source: OIG analysis of beneficiary survey responses, 2008.



                             Twenty percent of the beneficiaries surveyed may have been eligible
                             for but not enrolled in a low-income subsidy that could have assisted
                             them with purchasing prescription drugs during the coverage gap.
                             These beneficiaries reported annual incomes below 150 percent of the
                             FPL and therefore met the income eligibility requirements for a
                             low-income subsidy; whether they would have passed the asset test as
                             well is unknown.

                             Changes in drug use. Surveyed beneficiaries also identified changes in
                             the ways in which they used prescription drugs. One-third appeared to
                             have compromised their drug regimens, indicating that they used
                             medications less often, stopped taking medications, or did not start new
                             medications. In addition, 20 percent reported not consulting a medical
                             professional before making changes to their drug regimens. Table 8
                             lists changes that beneficiaries reported making in the way they used
                             prescription drugs during the coverage gap.




    OEI-05-07-00610          EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   17
F   I N D I N G               S



            Table 8: Beneficiaries’ Reported Changes in Drug Use During the
            Coverage Gap
            Changes in Prescription Drug Use                                                          Percentage of Beneficiaries*
            Used a medication less often than prescribed                                                                                       21%
            Switched to a different prescription drug                                                                                          18%
            Stopped taking one or more medications                                                                                             16%
            Did not start a new medication                                                                                                     14%
            Switched to an over-the-counter drug                                                                                                 4%
            *Choices are not mutually exclusive
            Source: OIG analysis of beneficiary survey responses, 2008.




    OEI-05-07-00610         EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   18
R   E C O        M M E N D A T                     I O N
Δ       R E C O M M E N D A T I O N S

                      Seven percent of beneficiaries entered the coverage gap without
                      financial assistance. Almost all of these beneficiaries made changes in
                      their drug purchasing behavior during the coverage gap. In particular,
                      69 percent decreased the number of drugs that they purchased. In
                      addition, the more drugs per month that beneficiaries purchased before
                      entering the coverage gap, the more they reduced the number of drugs
                      per month that they purchased during the coverage gap.

                      When surveyed, beneficiaries identified specific changes in the ways
                      they purchased or used drugs during the coverage gap. Thirty-eight
                      percent reported seeking at least one less-costly alternative to
                      purchasing drugs, and one-third appeared to have compromised their
                      drug regimens, potentially compromising their health.

                      Given that some beneficiaries appeared to decrease the number of drugs
                      that they purchased during the coverage gap and the potential health
                      consequences of those actions, we make the following recommendations
                      to CMS:
                      CMS Should Support Outreach and Education Activities Targeted at
                      Beneficiaries Who Make More Prescription Drug Purchases Before Entering
                      the Coverage Gap
                      CMS could accomplish this by encouraging plan sponsors to augment
                      their current outreach and beneficiary education efforts. CMS could
                      encourage sponsors to use drug utilization data to target beneficiaries
                      who purchase more drugs per month during initial coverage for more
                      education about efficient and effective drug purchasing options.
                      Medication Therapy Management programs (MTMP) could be expanded
                      to discuss drug purchasing options and strategies.

                      CMS could also supplement plans’ outreach and education efforts by
                      working directly with beneficiaries who historically have purchased
                      more drugs per month during initial coverage. These beneficiaries could
                      be targeted using the previous year’s PDE data. CMS could start by
                      targeting beneficiaries who purchased nine or more drugs per month
                      during initial coverage; our analysis shows that they had the most
                      dramatic drop in the number of drugs purchased monthly during the
                      coverage gap.

                      CMS could educate beneficiaries who purchased more drugs during
                      initial coverage about cost-saving strategies for purchasing prescription
                      drugs. This could include such strategies as talking to a doctor about
                      switching to lower-cost, therapeutically equivalent drugs or comparison
                      shopping to get the lowest prices on current drugs.

    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   19
R   E C O        M M E N D A T                     I O N             S


                      In addition, CMS could provide targeted education to these beneficiaries
                      about the various tools available for choosing the most cost-effective
                      prescription drug plan for the next year. Given that beneficiaries who
                      purchased more drugs during initial coverage had a high rate of generic
                      utilization, changing beneficiary purchasing behaviors within the same
                      plan, in some cases, may not be enough to reduce the financial burden
                      during the coverage gap.
                      CMS Should Target Low-Income Subsidy Outreach to Beneficiaries Who
                      Entered the Coverage Gap Without Financial Assistance
                      Targeting the population of beneficiaries who entered the coverage gap
                      without financial assistance in previous years might be one way to
                      identify eligible beneficiaries for enrollment in the low-income subsidy
                      program; 20 percent of the beneficiaries surveyed may have been
                      eligible. As a 2006 OIG report demonstrates, there is no effective way to
                      identify the pool of beneficiaries who may be eligible for the subsidy. 33
                      That report concluded that legislation is needed to allow CMS and the
                      Social Security Administration to more effectively identify beneficiaries
                      who are potentially eligible for the subsidy. We continue to support this
                      conclusion.

                      In addition, CMS should continue targeting beneficiaries to promote the
                      low-income subsidy and assist eligible beneficiaries. Beneficiaries who
                      enter the coverage gap without financial assistance for prescription
                      drug costs might benefit from more education about the low-income
                      subsidy that can assist them throughout the rest of the benefit year.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS generally agreed with our findings and stated that it appreciated
                      the additional information provided through the beneficiary survey.
                      CMS noted that our findings were similar to the results of CMS’s
                      analysis presented at the Medicare Drug Benefit Symposium, held in
                      October 2008. For example, we found that 7 percent of beneficiaries
                      entered the coverage gap and did not receive financial assistance with
                      their prescription drug costs. CMS found that almost 10 percent of
                      beneficiaries who did not have a low-income subsidy and were not in a
                      plan with gap coverage reached their plan’s specific initial coverage

                        33 OIG, “Identifying Individuals Eligible for the Medicare Part D Low-Income Subsidy,”
                      OEI-03-06-00120, November 2006.



    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   20
R   E C O        M M E N D A T                     I O N             S


                      limit. The difference in results can be explained by different analytic
                      approaches, as CMS correctly noted.

                      Although CMS generally agreed with our findings, it indicated a
                      concern about the lack of a control group with which to compare our
                      results. As a result, CMS pointed out that this evaluation does not
                      provide a true causal analysis. This is accurate, as the report does not
                      present a true causal analysis. Rather, it presents data about drug
                      purchases with a number of plausible explanations of those data,
                      including the possibility that the decrease in drug purchases was the
                      result of the coverage gap. This explanation is consistent with research
                      described in the body of the report suggesting that beneficiaries
                      decrease prescription drug use when they encounter a gap in coverage.

                      In addition, CMS questioned whether the decrease in drug purchases
                      could be attributed to the coverage gap. CMS stated that it had
                      conducted a similar analysis using beneficiaries who received a
                      low-income subsidy as a comparison group. CMS found that the
                      comparison group decreased the number of drugs purchased per month
                      despite the fact that they did not face a coverage gap. However, it is
                      unclear whether the extent of the decrease was as sharp for this group
                      as it was for beneficiaries without financial assistance during the
                      coverage gap.

                      In response to our recommendation that CMS support outreach and
                      education activities targeted at beneficiaries who make more
                      prescription drug purchases before entering the coverage gap, CMS
                      stated that it believed its current outreach to all beneficiaries is
                      sufficient. CMS stated that the annual open-enrollment campaign
                      encourages all beneficiaries to make informed decisions based on cost.
                      In addition, CMS indicated that the Medicare Prescription Drug Plan
                      Finder tool selects generic alternatives as the default and can substitute
                      lower-cost therapeutic alternatives. Thus, beneficiaries can use this tool
                      to explore cost-saving options. Lastly, CMS highlighted the additional
                      outreach done through Part D sponsors and their MTMPs.

                      However, we found that beneficiaries who made more prescription drug
                      purchases before entering the coverage gap had the largest drop in the
                      number of drugs purchased during the coverage gap. Because these
                      beneficiaries take more prescription drugs, they are likely in poorer
                      health and are the most vulnerable to negative health consequences
                      from nonadherence to drug regimens. Therefore, additional outreach
                      and education about efficient and effective drug purchasing options

    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   21
R   E C O        M M E N D A T                     I O N             S


                      targeted at this group of beneficiaries could have far-reaching health
                      benefits. Current CMS outreach and plan sponsor MTMPs do not target
                      this group, nor are MTMPs required to assist with financial decisions or
                      provide cost-saving strategies.

                      CMS concurred with our second recommendation that CMS target
                      low-income subsidy outreach to beneficiaries who entered the coverage
                      gap without financial assistance. CMS indicated that it would continue
                      to emphasize the financial value of the low-income subsidy to attract
                      beneficiaries with significant drug utilization who might benefit from
                      the subsidy. However, this action does not address our
                      recommendation, which is to use drug utilization data to identify
                      potential beneficiaries for the subsidy. Given the recognized difficulty
                      in identifying beneficiaries who may be eligible for the subsidy, we
                      offered this as an additional approach.

                      CMS also offered a few technical comments. They offered the same
                      comments when asked to informally comment on the draft report. We
                      did not alter our draft report in response to these comments because
                      they primarily pointed out how our analysis is different from other
                      approaches. Given that we clearly stated our approach, this did not
                      seem necessary. For this final version of the report, we have sought to
                      make these differences explicit. For the full text of CMS’s comments,
                      see Appendix E.




    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   22
Δ   A P P E N D I X                           ~           A



                  Detailed Methodology
                  This study explores the effect of the coverage gap on beneficiaries’ drug
                  purchasing behavior by focusing on those beneficiaries without
                  assistance during the coverage gap in 2006. We examined changes in
                  drug purchasing behavior and costs for these beneficiaries as they
                  moved from initial coverage into the coverage gap.
                  Data Sources
                  We used 2006 Prescription Drug Event (PDE) data to conduct this
                  study. The Centers for Medicare & Medicaid Services (CMS) requires
                  plans providing prescription drug coverage to submit PDE data for
                  payment purposes. Each drug event included in the PDE data
                  represents the dispensing of a drug or medical supply for the injection of
                  insulin. These data contain the beneficiary’s identification number; the
                  Food and Drug Administration’s National Drug Code (NDC) ; 34 the date
                  of service; the number of days for which the drug is supplied; and
                  payments at point of sale made by plan sponsors, beneficiaries (or on
                  behalf of beneficiaries), and other approved third-party payers. Our
                  analysis included final action PDE claims submitted by all plans for
                  2006 as of July 2007. 35
                  We used two drug data compendia to supplement the PDE data:
                  (1) August 2007 First DataBank drug product information data and
                  (2) first quarter 2007 Redbook drug product data. The 2007 First
                  DataBank and Redbook data contained information on all drugs covered
                  by Part D in 2006 but with more up-to-date drug information than
                  earlier versions of First DataBank and Redbook. First DataBank is a
                  database containing drug product information, such as drug name and
                  therapeutic class, for each NDC. Redbook is a database that provides
                  pricing and descriptive information for prescription and
                  over-the-counter drugs.




                    34 An NDC is a three-part universal identifier that specifies the manufacturer, product,
                  and package size.
                    35 Final action claims are those that CMS uses to reconcile payments to plans. A PDE
                  record is submitted each time a beneficiary fills a prescription covered under Part D. The
                  PDE records may be amended or deleted up to 6 months after the end of the payment year.
                  After that point, CMS considers them to be final action claims.



OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   23
A   P   P E N D       I X        ~           A


                      In addition, we conducted a national survey of a random sample of
                      beneficiaries. We used the Medicare enrollment database to obtain
                      addresses for our sample and public directories to find phone numbers.

                      To ensure the construct validity of our cover letter and survey
                      instrument, we conducted two focus group meetings at senior centers.
                      We asked beneficiaries to read the cover letter and complete the survey.
                      After they completed the survey, we conducted brief cognitive
                      interviews to determine whether the cover letter and survey were clear
                      and understandable. Most beneficiaries interpreted the survey
                      questions as we intended. Where necessary, we altered the survey
                      based on the feedback we received from the focus groups to make it
                      more understandable.

                      We conducted the survey primarily by mail. For beneficiaries with valid
                      phone numbers, we made three attempts by mail and two attempts by
                      phone to obtain their responses. For beneficiaries without valid phone
                      numbers, we made five mail attempts.
                      We allowed proxy respondents. We asked that the person who made
                      health care decisions on behalf of the beneficiary complete the survey.
                      Approximately 23 percent of the surveys were completed by someone
                      other than the beneficiary.
                      Data Analysis
                      Determining the number of beneficiaries in the coverage gap. The
                      complete final action 2006 PDE data contained nearly 817 million
                      claims for over 22 million beneficiaries. To obtain our population of
                      beneficiaries who had gross covered drug costs exceeding the initial
                      coverage limit and did not have financial assistance, we completed a
                      series of steps.

                      First, we removed some claims:

                      1.    We excluded all claims for noncovered Part D drugs because these
                            claims do not count toward true out-of-pocket expenses. This
                            removed 5,889,021 claims from the PDE data, representing less
                            than 1 percent of the total claims.

                      2.    We removed claims without corresponding drug-identifying
                            information. We merged beneficiary claims with First DataBank
                            and Redbook data. This removed 166,405 claims because the
                            drugs were not listed in at least one of those data sources.




    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   24
A   P   P E N D       I X        ~           A


                      Then, we determined our population:

                      1.    We removed all beneficiaries who did not have gross covered
                            drug costs greater than the initial coverage limit of $2,250. To do
                            this, we calculated cumulative and total spending for each
                            beneficiary using these PDE data fields: ingredient cost,
                            dispensing fee, and sales tax. This removed
                            14,783,703 beneficiaries, representing 66.7 percent of all
                            beneficiaries.

                      2.    We then removed all beneficiaries who received assistance from a
                            low-income subsidy. To complete this step, we used the PDE data
                            field that records the amount of a beneficiary’s low-income
                            subsidy, if any. If this field was greater than zero, we removed the
                            beneficiary. This removed 4,257,527 beneficiaries, representing
                            19.2 percent of all beneficiaries.

                      3.    Finally, we removed all beneficiaries who did not pay 100 percent
                            of the drug’s ingredient cost, dispensing fee, and sales tax for all
                            claims during the coverage gap. To do this, we separated the
                            claims into three phases: (1) before the coverage gap, which
                            included both the deductible and initial coverage; (2) during the
                            coverage gap; and (3) catastrophic coverage (after the coverage
                            gap). We then determined which beneficiaries had claims during
                            the coverage gap for which they did not pay 100 percent of the
                            drug cost. This removed 1,411,446 beneficiaries, representing
                            6.4 percent of all beneficiaries.

                      We assumed the standard 2006 initial coverage limit of $2,250 as the
                      threshold for entry into the coverage gap. While we did not use the
                      initial coverage limit specific to each beneficiary’s plan, we did exclude
                      all forms of assistance in the coverage gap, which includes additional
                      assistance from plans with extended initial coverage limits.

                      Finally, we removed additional beneficiaries because of data anomalies
                      that made their claims history implausible:

                      1.    We removed any beneficiary whose entry into catastrophic
                            coverage preceded his or her entry into the coverage gap. To do
                            this, we calculated the date when each beneficiary entered the
                            coverage gap and catastrophic coverage. An additional
                            16,808 beneficiaries were removed in this step, representing less
                            than 1 percent of all beneficiaries.



    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   25
A   P   P E N D       I X        ~           A


                      2.    We removed any beneficiary who had a claim before the coverage
                            gap but not during it or who had a claim during the coverage gap
                            but not before. This removed an additional 166,017 beneficiaries,
                            representing less than 1 percent of all beneficiaries.

                      As a result, our population consisted of 1,530,788 beneficiaries with
                      81,922,129 claims. We assigned beneficiaries to one of three groups,
                      based on the average number of drugs purchased per month during
                      initial coverage: 1 to 4.9 drugs, 5 to 8.9, and 9 or more. This allowed
                      us to analyze changes in drug purchasing and payment across groups,
                      based on the average number of drugs purchased.
                      Analyzing changes in beneficiary drug purchases. To measure drug
                      purchasing in each coverage phase, we calculated three measures:
                      (1) average number of different drugs per month, (2) percentage of
                      drugs purchased to treat chronic and acute conditions, and (3) generic
                      drug utilization rate.

                      We based our count of drugs per beneficiary on the Ingredient List
                      Identifier for each drug. This represents a unique combination of active
                      ingredients, regardless of manufacturer, package size, dosage form,
                      route of administration, or strength. As such, it incorporates multiple
                      NDCs.

                      Where we refer to months in our calculations, we calculated months
                      based on the whether or not a beneficiary filled a prescription. If a
                      beneficiary had a claim during a given month, we counted that calendar
                      month towards his or her total months.

                      To identify the percentage of chronic and acute drugs purchased per
                      phase, we used a data field from the Redbook that indicated, at the NDC
                      level, whether a drug was considered to be a maintenance drug.
                      Maintenance drugs are used to treat chronic conditions. In each
                      coverage phase, we counted the total number of maintenance and
                      nonmaintenance drugs prescribed and divided that by the total number
                      of drugs purchased.

                      To identify the generic drug utilization rate per phase, we used a data
                      field from First DataBank that indicates, at the NDC level, whether a
                      drug is a brand-name or generic drug. We then identified the number of
                      prescriptions labeled as generic for each beneficiary.




    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   26
Δ   A P P E N D I X                           ~           B

                  Beneficiary Survey Responses




OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   27
A   P   P E N D       I X        ~           B




    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   28
A   P   P E N D       I X        ~           B




    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   29
A   P   P E N D       I X        ~           B




    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   30
A   P   P E N D       I X        ~           B




    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   31
A   P   P E N D       I X        ~           B




    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   32
A   P   P E N D       I X        ~           B
Δ       A P P E N D I X                           ~           C

                      Nonresponse analysis
                      We analyzed how nonresponse to our survey may have affected our
                      survey estimates. We examined potential nonresponse bias effects on
                      24 key survey questions. Our nonresponse analysis provided no
                      evidence that our survey results were biased because of nonresponse.

                      Our basic approach was to impute answers for nonrespondents and
                      determine whether the survey estimate calculated with the imputed
                      values differed significantly from the survey estimate based solely on
                      the respondents’ answers. If no statistical difference was found between
                      the two estimates, we considered our survey estimates to be unaffected
                      by potential nonresponse bias.

                      Variables for both respondent and nonrespondent beneficiaries were
                      age, sex, race, drug benefit type, and plan type. We determined
                      whether respondents and nonrespondents differed based on these
                      variables. They did not differ based on sex, race, and drug benefit type.
                      However, they differed based on plan type and age.

                      Because nonrespondents were different by plan type and age, we
                      imputed nonrespondents’ answers based on the response frequencies of
                      late responders who shared the same plan type and age characteristics.
                      To do this, we classified response time as either “early” or “late”
                      depending on how many attempts it took to obtain a response. Late
                      responders were those who responded to the survey after our third
                      contact attempt. Finally, we conducted statistical tests of significance
                      to determine whether the estimates based on both respondents’ answers
                      and nonrespondents’ imputed values differed from the estimates based
                      only on respondents’ answers.




    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   33
           Δ            A P P E N D I X                                   ~           D

                                              Estimates and Confidence Intervals·


Table D-1: Estimates of Survey Results: Coping Strategies Related to Prescription Drug Purchasing and
Use During the Coverage Gap by Beneficiaries Who Reported Entering the Coverage Gap
                                                                                                       Sample                                                                       95-Percent
Estimate Description                                                                                     Size               Point Estimate                                  Confidence Interval
Percentage of beneficiaries who reported entering the coverage gap
after enrolling in a Part D plan                                                                               142                            80.3%                                      73.7%–86.9%
Percentage of beneficiaries who reported seeking less costly
alternatives to purchasing drugs (i.e., used a medication less often,
stopped taking a medication, or did not start a new medication)                                                114                            37.7%                                      28.7%–46.8%
Percentage of beneficiaries who reported using free prescription
drug samples                                                                                                   114                            25.4%                                      17.3%–33.6%
Percentage of beneficiaries who reported shopping around and
comparing prices                                                                                               114                            22.8%                                      15.0%–30.6%
Percentage of beneficiaries who reported switching to a mail-order
pharmacy                                                                                                       114                            11.4%                                         5.5%–17.3%
Percentage of beneficiaries who reported purchasing drugs outside
their plan                                                                                                     114                              7.9%                                        2.9%–12.9%
Percentage of beneficiaries who reported receiving at least one type
of help in purchasing their prescription drugs                                                                 114                            14.9%                                         8.3%–21.6%
Percentage of beneficiaries who reported receiving more than one
source of help in purchasing their prescription drugs                                                          114                              1.8%                                        0.2%–6.2%*
Percentage of beneficiaries who reported receiving help from a
family member or friend                                                                                        114                              7.9%                                        2.9%–12.9%
Percentage of beneficiaries who reported receiving help from a
State Pharmacy Assistance Program                                                                              114                              4.4%                                          0.6%–8.2%
Percentage of beneficiaries who reported receiving help from a
private pharmaceutical company                                                                                 114                              3.5%                                          0.1%–6.9%
Percentage of beneficiaries who reported receiving help from a
charitable organization                                                                                        114                              0.9%                                      0.02%–4.8%*
Percentage of beneficiaries who reported compromising their drug
regimens (i.e., used a medication less often, stopped taking a
medication, or did not start a new medication)                                                                 114                            33.3%                                      24.5%–42.1%
Percentage of beneficiaries who reported using a drug less often
than prescribed                                                                                                114                            21.1%                                      13.5%–28.7%
Percentage of beneficiaries who reported that they stopped taking a
medication                                                                                                     114                            15.8%                                         9.0%–22.6%
Percentage of beneficiaries who reported not starting a new
medication                                                                                                     114                            14.0%                                         7.6%–20.5%
* Confidence interval calculated with an exact method based on the binomial distribution.
Source: Office of Inspector General (OIG) analysis of beneficiary survey responses, 2008.




                  OEI-05-07-00610             EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   34
                 A    P    P E N D             I X            ~          D




Table D-1: Estimates of Survey Results: Coping Strategies Related to Prescription Drug Purchasing and
Use During the Coverage Gap by Beneficiaries Who Reported Entering the Coverage Gap, continued
                                                                                                      Sample                                                                       95-Percent
Estimate Description                                                                                    Size               Point Estimate                                  Confidence Interval
Percentage of beneficiaries who reported not talking to a doctor,
nurse, or pharmacist before changing their drug use                                                           110                            20.0%                                      12.4%–27.6%
Percentage of beneficiaries who reported switching to a different
prescription drug                                                                                             114                            18.4%                                      11.2%–25.6%
Percentage of beneficiaries who reported switching to an over-the-
counter drug                                                                                                  114                              4.4%                                          0.6%–8.2%
Source: OIG analysis of beneficiary survey responses, 2008.




    Table D-2: Estimates of Survey Results: Beneficiaries’ Reported Annual Incomes


                                                                                                                   Sample                           Point                          95-Percent
    Estimate Description                                                                                             Size                        Estimate                  Confidence Interval
    Percentage of all beneficiaries who reported that their annual
    household income was below 150% of the Federal poverty level                                                           176                        19.9%                           13.9%–25.8%
    Source: OIG analysis of beneficiary survey responses, 2008.




                  OEI-05-07-00610            EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   35
Δ   A P P E N D I X                           ~           E

                  Agency Comments




OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   36
A P P E N D        I X        ~           E




 OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   37
A P P E N D        I X        ~           E




 OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   38
A P P E N D        I X        ~           E




 OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   39
A   P   P E N D       I X        ~           A
                                             D
Δ       A C K N O W L E D G M E N T S

                      This report was prepared under the direction of Ann Maxwell, Regional
                      Inspector General for Evaluation and Inspections in the Chicago
                      regional office, and Thomas Komaniecki, Deputy Regional Inspector
                      General.

                      Nicole Hrycyk served as the team leader for this study. Other principal
                      Office of Evaluation and Inspections staff from the Chicago regional
                      office who contributed to the report include Meghan Kearns, Elizabeth
                      Kopko, Tamara Perry, Margarita Rodriguez, and Mara Werner; other
                      central office staff who contributed include Kevin Farber, Doris
                      Jackson, Kevin Manley, and Matthew McMullen.




    OEI-05-07-00610   EFFECTS   OF   M E D I C A R E PA R T D C O V E R A G E G A P   ON   B E N E F I C I A R I E S W I T H O U T F I N A N C I A L A S S I S TA N C E   40
